               U.S. DEPARTMENT OF COMMERCE
                       Office of Inspector General




  Improving    What Census 2000
Our Measure    Can Teach Us in
 of America:
               Planning for 2010




                                     SPRING 2002
                             Report No. OIG-14431
                                      Spring 2002
                                                                                              U.S. Department of Commerce



  Improving Our
Measure of America:
                      M E S S A G E                       F R O M                T H E
     What
 Census 2000
Can Teach Us in
 Planning for
     2010
                      Inspector General
                      T
                            his document represents a departure from the reports typically issued by the Office of
                            Inspector General. Rather than detailing the outcome of a program audit or inspection, it
                            shares the lessons we have gleaned from years of monitoring and assessing the preparation
                      for and execution of Census 2000. Our purpose in issuing this report is straightforward: to create a
                      document that is timely, meaningful, and user-friendly for stakeholders in the decennial process
                      and that offers guidance for improving census planning and operations. In pursuing this goal, we
                      endeavored to consider the perspectives and experiences of people and organizations involved in
                      or impacted by the decennial:

                         • We listened to the concerns and insights of Census Bureau officials and Department of
                           Commerce managers who are ultimately responsible for making the decennial happen.

                         • We conferred with field enumerators and managers—the front-line census-takers—to learn
                           about the successes they achieved, the challenges they faced, and the obstacles that remain
                           to be overcome.

                         • We talked with congressional members and staff, as well as state and local elected officials,
                           for whom the political stakes of census outcomes are so high.

                         • We sought input from census experts both within and outside the government regarding the
                           key components of effective census operations and the major pitfalls that threaten the
                           process.

                      We evaluated this feedback in light of the needs and interests of those who are ultimately most
                      impacted by the decennial process—American citizens—knowing that it is the responsibility of
                      the government in conducting the decennial to ensure that their interests are protected. Our hope
                      is that the lessons contained herein will aid in the development and execution of decennial cen-
                      suses that accomplish these objectives as efficiently and effectively as possible.

                      This report identifies what we view as the 10 most important lessons learned during the course of
                      the decennial and is organized according to those lessons. While we provide suggestions for
                      improvement, this is not a report to which the Bureau of the Census is required to formally
                      respond. It is our hope that this document will serve as a useful tool for 2010 census planning.
                      We look forward to working with Census staff and managers, Commerce officials, and other
                      involved parties as the Census Bureau moves to develop strategies for a successful 2010 decennial
                      census.




                      Johnnie E. Frazier,
                      Inspector General
                                                           Contents
             EXECUTIVE SUMMARY                                             iii

             INTRODUCTION                                                  1



             LESSONS LEARNED                                               5

LESSON 1:    Reach Early Consensus on the 2010 Design to Facilitate
             Effective Planning and Obtain Sufficient Funding                      5

LESSON 2:    Produce Accurate, Complete Address Lists and Maps                     11

LESSON 3:    Conduct a Carefully Targeted and Aggressive Public
             Awareness Campaign                                                    13

LESSON 4:    Strengthen Quality Control of Nonresponse Follow-up                   15

LESSON 5:    Implement Clear Policies and Guidance for Managing Temporary Staff    17

LESSON 6:    Determine Whether Sampling Has a Role Beyond Measuring Coverage       19

LESSON 7:    Implement Rigorous System and Software Development Processes
             and Effective Information Security Measures                           21

LESSON 8:    Upgrade and Maintain Contracting and Program Management Expertise     25

LESSON 9:    Generate Timely, Accurate Management and Operational Information      29

LESSON 10:   Mitigate Potential Disruptions and Distractions to the Work
             Environment and Workforce                                             33



             CONCLUSION                                                    34

             NOTES                                                         35

             REFERENCES                                                    37

                                                                                  Spring 2002   ii
Office of Inspector General




                Executive Summary                                                                        Improving Our
                                                                                                       Measure of America:
                                                                                                            What
                                                                                                        Census 2000
                                                                                                       Can Teach Us in
                                                                                                        Planning for
                                                                                                            2010


C
     ostly, complex, and high risk are terms used to describe Census 2000. Yet operationally, most
     agree that this decennial census was a success—participation was higher than anticipated,
     especially among the historically undercounted, and operations concluded on time. Now the
Bureau must determine how to capture its successes, improve areas of weakness, and anticipate
emerging challenges as it plans for Census 2010.

The Office of Inspector General monitored aspects of the Bureau’s planning and conduct of Census
2000. We issued more than 30 reports and special memorandums; held numerous discussions with
headquarters officials and field managers; reviewed hundreds of questionnaires, reinterview forms,
and management and financial reports; examined the Bureau’s address file; and traveled to local
                                                            census offices throughout the country
                                                            to evaluate various field operations.
                                                            This report summarizes the highlights
 “The actual enumeration shall                              of some of our work and organizes
    be made …within every                                   our findings around 10 basic lessons
                                                            learned. We believe that discussing
subsequent term of ten years…”                              these issues in conjunction with the
                                                            findings of the Bureau’s own internal
        U N I T E D S TAT E S C O N S T I T U T I O N       evaluations and the analyses of others
                                                            will result in sound guidance for plan-
                                                            ning and conducting Census 2010.

Lesson 1: Reach Early Consensus on the 2010 Design to Facilitate Effective Planning and
Obtain Sufficient Funding
An undertaking as huge and complex as the decennial census requires long lead times to allow for
proper development and testing of the overall design and to define and procure systems.
Therefore, an agreed-upon design with sufficient funding to support its development must be in
place early. The drawn-out dispute over sampling precluded early agreement on Census 2000’s
design and increased problems in its execution.

Our review of the Bureau’s readiness to conduct the 2000 decennial revealed that as late as 1995
Census still did not have a design that was sufficiently finalized to undergo full-scale testing. In
1998, as the dress rehearsal approached, many in Congress were opposed to the use of sampling
and required the Bureau to test two census designs—one that relied on sampling and one that
did not. A final decision on the design did not come until 1999, when the United States Supreme
Court ruled that sampling could not be used to apportion the House of Representatives, in effect,
telling Census that it must concentrate on the traditional approach of enumerating every house-
hold in the nation.




                                                                                        Spring 2002         iii
                                                                                            U.S. Department of Commerce



  Improving Our
Measure of America:
     What
 Census 2000
Can Teach Us in
 Planning for
     2010
                      Eager to avoid the design-related problems experienced during Census 2000, the Bureau is already
                      developing its plan for 2010, which includes a reengineered address file and associated maps, as
                      well as a design that collects data using only the short form. The Bureau intends to replace the
                      decennial long form with data collected from a continuous measurement system called the
                      American Community Survey (ACS). We commend the Bureau for these early planning efforts, but
                      are concerned about its intention to rely on this new design because of the uncertainty of fund-
                      ing for it: if the Bureau does not receive sustained ACS funding throughout the decade, it may be
                      unable to eliminate the long form for 2010. We believe that Census’s plan for the next decennial
                      should (1) standardize the long-form and ACS questionnaires so that they are compatible in con-
                      tent and layout; sample design; and data collection, capture, and processing methods and tech-
                      nologies; and (2) include a contingency plan for use of the long form.

                      Lesson 2: Produce Accurate, Complete Address Lists and Maps
                      Knowing where the nation’s people are and how to reach them is fundamental to the decennial
                      census. The Master Address File (MAF) is the Bureau’s primary tool for accomplishing this task.
                      Accuracy and completeness are vital to the reliability of the MAF and associated maps; hence, the
                      Bureau’s ongoing planning must include special efforts to create a more reliable address file and
                      mapping system. Over the course of the last decade, we issued several reports on these critical
                      operations, including some that identified numerous problems with the MAF, such as missing,
                      duplicate, and inaccurate addresses, and noted that maps were often neither current nor drawn to
                      appropriate scale. To help avoid these problems in the next decennial, the Bureau should continue
                      working to improve the MAF and mapping system throughout the decade, establishing perform-
                      ance measures for accuracy and completeness, testing against these goals, and reporting to deci-
                      sion-makers on the progress made toward meeting performance objectives.

                                        Lesson 3: Conduct a Carefully Targeted and Aggressive Public Awareness
                                        Campaign
                                        The Bureau had set goals for Census 2000 of increasing public awareness and
                                        improving the mail response rate. To achieve these goals, Census conducted a
                                        two-part publicity campaign: (1) national paid advertisements began 6 months
                                        before census forms were mailed out; and (2) partnerships between the Bureau
                                        and state and local organizations developed community-specific initiatives to
                                        publicize the decennial. Both components were designed to educate individuals
                                        about the census and encourage them to return census forms. The 2000
                                        response rate of 67 percent surpassed that of 1990 (65 percent) and far
                                        exceeded the projected rate of 61 percent. Considering the general downward
                                        trend in return rates from one census to the next, we commend the Bureau for
                                        having done an excellent job in motivating the American public to participate.
                                        The higher-than-anticipated response rate in 2000 reduced the cost of the
                                        decennial because enumerators had to visit fewer households for nonresponse
                                        follow-up.



         iv           Spring 2002
Office of Inspector General



                                                                                                          Improving Our
                                                                                                        Measure of America:
                                                                                                             What
                                                                                                         Census 2000
                                                                                                        Can Teach Us in
                                                                                                         Planning for
                                                                                                             2010
We reviewed the Bureau’s public awareness campaign prior to kickoff of the 2000 decennial and
found that the advertising message was developed using a sound methodology and that the part-
nership effort had resulted in a comprehensive, effective nationwide program of education aimed
at increasing the mail response rate and thereby reducing the undercount. Given the apparent
success of these programs at getting people to respond, we believe the Bureau should incorporate
similar components into its 2010 decennial design.

Lesson 4: Strengthen Quality Control of Nonresponse Follow-up
For 2010, Census must do a better job of overseeing data collection at each local office to avoid
costly reenumeration and ensure the public’s confidence in census results. More specifically, the
Census Bureau needs to improve its quality assurance efforts to better identify falsified informa-
tion. Falsified data submitted by enumerators threatens the integrity of the entire census and,
when identified, results in the costly exercise of having to reenumerate the affected area. Highly
questionable data and shortcuts used to collect census information were problems at a
number of local census offices, particularly at three Florida locations, where suspect
data required the Bureau to reenumerate much of their coverage areas. The negative
publicity surrounding these events raised the public’s concern about the accuracy of
the census.

Lesson 5: Implement Clear Policies and Guidance for Managing Temporary Staff
The Bureau hired more than 950,000 temporary workers to conduct various field oper-
ations at its 520 local census offices. Hiring and managing large numbers of tempo-
rary employees was a challenge for all these offices, and created some significant
problems at a few. Although the task of recruiting, training, and effectively managing
a large number of people during the decennial census is inherently difficult, our find-
ings and observations suggest nonetheless that the process can be improved. The
Bureau needs to examine and strengthen personnel policies and procedures regarding
such matters as employee safety, overtime, termination for cause, and reassignment of
staff among census offices.

Lesson 6: Determine Whether Sampling Has a Role Beyond Measuring Coverage
The proposed use of sampling to improve coverage was perhaps the most controversial aspect of
Census 2000. In 1999, after the United States Supreme Court ruled that census results derived
from sampling could not be used to apportion the House of Representatives, the Bureau proceeded
with sampling operations for other potential uses, such as the allocation of federal funds. The
Bureau initially believed it could improve the accuracy of census counts by adjusting them via
sampling. But extensive data analysis has not demonstrated that the statistically adjusted counts
are more accurate than the unadjusted ones. As early as possible for 2010, we believe the Bureau
must determine whether sampling has a purpose beyond providing a quality check to measure
coverage.




                                                                                          Spring 2002         v
                                                                                             U.S. Department of Commerce



  Improving Our
Measure of America:
     What
 Census 2000
Can Teach Us in
 Planning for
     2010
                      Lesson 7: Implement Rigorous System and Software Development Processes and Effective
                      Information Security Measures
                      The Bureau needs to strengthen its management of information technology resources and its
                      approach to software development. Data collected from the decennial must be processed within
                      severe time constraints, and results must be accurate. During Census 2000, the Bureau often used
                                                             an ad hoc approach to software development that provided
                                                              inadequate controls, insufficient testing, and poor or no
                                                              documentation. In several instances, these unsystematic
                                                              methods led to disruptive errors that had to be corrected
                                                              as the census was being conducted.

                                                             In addition, with the inevitable expansion of Internet use
                                                             and the Bureau’s plans to increase electronic transmission
                                                             of census questionnaire data, information security will be
                                                             even more critical in 2010. Title 13 of the U.S. Code pro-
                                                             hibits the Census Bureau from disclosing data it collects
                                                             about individuals and establishments. Unintentional dis-
                                                             closure of this data could seriously damage the decennial
                                                          by undermining confidence in the Bureau’s ability to keep
                      information confidential and thus diminishing the public’s willingness to respond. The Bureau,
                      with its unique mission, must incorporate strong security mechanisms that will safeguard its cen-
                      sus-related computer systems and networks from unauthorized access and its data from unautho-
                      rized disclosure or modification.

                      Lesson 8: Upgrade and Maintain Contracting and Program Management Expertise
                      For Census 2000, the Bureau contracted out various important projects including development and
                      operation of its largest, most complex IT systems, and its advertising campaign. However, it did
                      not have sufficient contracting and program management staff with the training and experience
                      to most efficiently acquire systems and manage complex, high dollar contracts. Ultimately, the
                      contracts supported decennial census operations but in many instances, they did so at a higher
                      cost than necessary. For 2010, when contractors will likely play a larger role, the Bureau must
                      have a sufficient number of highly skilled and properly trained personnel who are dedicated to
                      the planning and management of decennial contracts.

                      Lesson 9: Generate Timely, Accurate Management and Operational Information
                      In a program as time sensitive as the decennial census, the importance of having timely and accu-
                      rate information about management activities and operational functions cannot be overstated.
                      Without such data, Census management is unable to effectively oversee and evaluate performance,
                      make informed management decisions, and improve the execution of future censuses. For example,
                      the Bureau failed to track and analyze proxy questionnaire data—thus depriving itself of a critical
                      management tool for assessing the integrity of nonresponse follow-up operations. Had the Bureau



         vi           Spring 2002
Office of Inspector General



                                                                                                          Improving Our
                                                                                                        Measure of America:
                                                                                                             What
                                                                                                         Census 2000
                                                                                                        Can Teach Us in
                                                                                                         Planning for
                                                                                                             2010
monitored proxy data, perhaps it would have recognized enumeration irregularities in Hialeah,
Florida, where the local census office sanctioned inappropriate use of proxy questionnaires and
abused other procedures. As a result of these actions, Census had to completely reenumerate the
Hialeah district. The number of LCOs that allowed similar improprieties will never be known
because data from proxy questionnaires was unavailable during the nonresponse follow-up opera-
tion. In 2010, the Bureau must closely monitor this data collection operation to avoid repetition
of these abuses.

Providing timely information to the unprecedented number of organizations that tracked the
progress of the census, including GAO, the Census Monitoring Board, and our office, also proved
difficult. For 2010, the Bureau should be prepared for the scrutiny and interest of outside parties
and should therefore establish procedures for providing them with accurate, timely data while the
decennial is being conducted.

Lesson 10: Mitigate Potential Disruptions and Distractions to the Work Environment
and Workforce
Although the decennial is the Bureau’s most costly and labor-intensive function, Census has other
important initiatives and responsibilities that it must handle as well. The Bureau must be prepared
to overcome challenges that affect all of its operations. Time and again, the Bureau has proven its
ability to do so, and its handling of one potential problem for the 2000 decennial showed particu-
lar foresight. The Bureau needed to hire nearly 1 million temporary employees to support decenni-
al operations at a time when unemployment was at historically low levels. Concerned that it would
have difficulty hiring sufficient personnel, the Bureau increased wage levels across the country. As
a result of this and other efforts, Census successfully hired enough temporary workers.

During this decade of preparation for 2010, Census must handle at least two major challenges that
could impact decennial activities: (1) the Bureau could lose, through retirement, up to half of its
current decennial staff. As soon as possible it must have strategies in place to retain institutional
knowledge and expertise so as to ensure the smooth continuity of decennial management and
operations. (2) census is scheduled to move into its new headquarters building in 2008. Given the
timing of the move, which is set for the same year as the planned dress rehearsal, and the fre-
quent delays associated with many construction projects, the Bureau must have a solid relocation
plan to minimize disruptions to its operations, and to identify and ameliorate potential problems
while keeping costs in check and decennial preparations on track.




                                                                                         Spring 2002        vii
                                    U.S. Department of Commerce



  Improving Our
Measure of America:
     What
 Census 2000
Can Teach Us in
 Planning for
     2010




       viii           Spring 2002
Office of Inspector General




                                             Introduction                                                 Improving Our
                                                                                                        Measure of America:
                                                                                                             What
                                                                                                         Census 2000
                                                                                                        Can Teach Us in
                                                                                                         Planning for
                                                                                                             2010


T
     he Office of Inspector General has issued more than 30 reports and memorandums addressing
     various aspects of the 2000 decennial census. This report describes some of the key “lessons
     learned” from our reviews. We offer them as guidance for planning Census 2010.

The Bureau is currently conducting its own internal evaluations of 2000 decennial operations. Its
findings will be instrumental to the 2010 planning process and, when combined with the guidance
we offer here and the analyses of others, should yield a solid framework for designing and imple-
menting a more efficient and effective decennial count.

A Critical American Process
The decennial census is a constitutionally mandated population count that provides the basis for
reapportioning seats in the U.S. House of Representatives. It is also used for redrawing state leg-
islative district boundaries and allocating federal grant-in-aid funds to state and local govern-
ments. Data from decennial censuses provides official, uniform information gathered over decades
on the social, demographic, and economic characteristics of the nation’s people. Because of its
importance, the decennial census must be as accurate and complete as possible. The Secretary of
Commerce is responsible for overseeing all phases of the decennial census and reporting the
results of the count to the President by December 31 of the decennial year. The Secretary has del-
egated responsibility for conducting the census to the Director of the Census Bureau.

The first decennial census was con-
ducted in 1790, and 21 have
                                       Growth in Population and Housing Units
occurred since then—each one
more complex than its predecessor      300,000,000
as the number of households
increased and the population
                                       250,000,000
became more diverse. In just 50        200,000,000
years, the U.S. population has
grown by more than 100 million          150,000,000
people—from 150 million in 1950
to more than 280 million in 2000.       100,000,000
During these same years, the num-
ber of housing units increased from      50,000,000
40 million to 117 million. These
                                                     0
increases in the population and its                         1960      1970
diversity have made planning and                                                1980
                                                    Decade                                 1990       2000
                                                                                                                        SOURCE: U.S. CENSUS BUREAU




conducting the decennial census
an increasingly time-consuming
and complicated process.                                           housing units
The 2000 decennial was surely one                                      population
of the most challenging of them all.


                                                                                       Spring 2002            1
                                                                                                                          U.S. Department of Commerce



    Improving Our
  Measure of America:
       What
   Census 2000
  Can Teach Us in
   Planning for
       2010
                         Because of political controversy over statistical sampling, the Census Bureau developed two plans
                         for this decennial: one which utilized sampling and the other designed to collect information
                         from 100 percent of the population. The controversy ended in January 1999, when the U.S.
                         Supreme Court ruled that sampling could not be used for congressional apportionment.

                         Several years before the actual count was to occur, the Bureau began developing an address file
                         and updating its mapping system to pinpoint the location of each housing unit. The Bureau used
                         this Master Address File (MAF) in March 2000 to send out 120 million questionnaires to house-
                         holds throughout the country. Completed questionnaires were returned to one of four data pro-
                         cessing sites where census employees scanned responses into a computer. This data was transmit-
                         ted to the processing center at Bureau headquarters and refined into the “census.” The first set of
                         census statistics, released on December 28, 2000, was used for apportionment. Data used for redis-
                         tricting was released in March 2001. The Bureau also conducted an Accuracy and Coverage
                         Evaluation (A.C.E.) to measure census coverage and potentially adjust census counts.

       Census 2000 Total Estimated Full-cycle Cost (1991-2003)                                         In addition to mailing question-
($ millions)                                 $6.5 billion                                              naires, Census conducted field
$4,200                                                                      6.5
                                                                                                       operations from January1 through
                                                                        4,11
$4,000                                                                ▲
                                                                                                       August 2000 to collect informa-
$3,800
$3,600                                                                                                 tion from households and indi-
$3,400                                                                                                 viduals who either did not
$3,200
$3,000                                                                                                 receive a mailed questionnaire or
$2,800
                                                                                             SOURCE: U.S. CENSUS BUREAU




$2,600                                                                                                 who failed to return it. To gather
$2,400                                                                                                 and process this information, the
$2,200
$2,000                                                                                                 Bureau opened a network of tem-
$1,800                                                                                                 porary field offices: 12 regional
$1,600
$1,400                                                                                                 census centers for managing field
$1,200
$1,000                                                        ▲ 1,0
                                                                   84                                  data collection and 520 local
  $800                                                                              .3                 census offices (LCOs) for collect-
  $600                                                                        ▼
                                                                                471
                                                   4       .3                           109
                                                                                             .7        ing the field data. The Bureau
  $400                    8    .7 40.9 51.4 ▼86.      ▲ 386
  $200       1.1 ▼9.5 ▼13. ▼18     ▼     ▼
                                                                                       ▼
                                                                                                       also hired more than 950,000
                                                                                                ▼*
            ▼
    $0
          1991 1992 1993 1994 1995 1996 1997 1998 1999 2000 2001 2002 2003                             temporary employees, including
                                                                             Note: *not yet available. local office managers, crew lead-
                                                                                                       ers, enumerators, partnership
                        specialists, and clerks, to operate the offices and collect, tabulate, perform quality control on,
                        and process census information.

                         Not only is census-taking more complicated than ever before, it is also more costly. In 1960, the
                         government spent $563 million on the census. By 1990, costs had risen to $2.6 billion. In 2000,
                         the greater scale and complexity of the census required the use of new technology and the hiring
                         of hundreds of thousands of temporary employees. These factors brought the cost to $6.5 billion.
                         Early estimates for the 2010 census predict that expenditures will top $11 billion.


            2           Spring 2002
Office of Inspector General



                                                                                                              Improving Our
                                                                                                            Measure of America:
                                                                                                                 What
                                                                                                             Census 2000
                                                                                                            Can Teach Us in
                                                                                                             Planning for
                                                                                                                 2010
Despite the challenges, Census 2000 is considered a success for having substantially improved cov-
erage over the 1990 decennial. However, cognizant Bureau officials qualify the success:

   Rather than being attributable to detailed, integrated testing and planning, Census 2000 successes
   are largely the result of the huge, late infusion of funds; individual heroics by a limited set of key
   managers, contractors, and staff; and explicit acceptance of a high risk strategy to develop systems
   and procedures. ...The Census Bureau believes that to rely on this solution for future censuses, at
   best, employs an unwise strategy and, at worst, creates a recipe for failure.2

As the Bureau prepares for the next decennial, we wish to share the lessons we learned from our
analysis of Census 2000—findings that we believe can help keep costs down and improve out-
comes in 2010. We present those findings here, having brought together the perspectives and
analyses from many of the census-related activities we conducted prior to and during the 2000
decennial, including the following:

   • Preparation of more than 30 decennial-related reports and special memorandums.
   • Numerous discussions with Census officials, managers, and staff.
   • Reviews of hundreds of questionnaires, quality control forms, and management and financial
     reports.
   • Analyses of the Bureau’s address file.
   • Visits to numerous census offices throughout the country.

In addition, we considered the work of other oversight bodies including the General Accounting
Office (GAO), the Census Monitoring Board, and the National Academy of Sciences (NAS). We
attended meetings of the Census Advisory Committee—whose membership included professional
associations, data users, state and local governments, and racial and ethnic groups—before, dur-
ing, and after the census to understand its concerns regarding Census 2000.

We have organized our lessons around 10 major issues that we believe are crucial to the success of
future decennial censuses:

   1. Reach early consensus on the 2010 design to facilitate effective planning and obtain suffi-
      cient funding.
   2. Produce accurate, complete address lists and maps.
   3. Conduct a carefully targeted and aggressive public awareness campaign.
   4. Strengthen quality control of nonresponse follow-up.
   5. Implement clear policies and guidance for managing temporary staff.
   6. Determine whether sampling has a role beyond measuring coverage.
   7. Implement rigorous system and software development processes and effective information
      security measures.
   8. Upgrade and maintain contracting and program management expertise.
   9. Generate timely, accurate management and operational information.
  10. Mitigate potential disruptions and distractions to the work environment and workforce.

                                                                                             Spring 2002          3
                                    U.S. Department of Commerce



  Improving Our
Measure of America:
     What
 Census 2000
Can Teach Us in
 Planning for
     2010




          4           Spring 2002
Office of Inspector General




                              Lessons Learned                                                                Improving Our
                                                                                                           Measure of America:
                                                                                                                What
                                                                                                            Census 2000
                                                                                                           Can Teach Us in
                                                                                                            Planning for
                                                                                                                2010
Lesson 1: Reach Early Consensus on the 2010 Design to
Facilitate Effective Planning and Obtain Sufficient Funding
The Census Bureau must finalize its census design early and secure a steady flow of financial
support from Congress and the administration to implement it. The design should be clearly
defined; its costs, benefits, and rationale articulated; its risks and issues identified. A solid plan
for resolving the risks and implementing the design must be prepared. The problems the Bureau
experienced in 2000 are not new. Observations we made about the 1980 census apply equally to
Census 2000.

     As we reported, there was a lack of realistic scheduling to enable available resources to complete
     scheduled activities. Plans were not carefully thought out in reasonable time frames, nor were ade-
     quate contingencies provided for plans which did not work properly. “Delayed decisions, lack of
     enforced milestones, late specifications and late procedures were a detriment to the
     census.…[C]ensus planning went staggeringly to the wire.” The enumeration started with many
     programs and procedures not properly tested. A massive amount of resources was devoted toward
     recovering from malfunctions and to implementing a continuing flow of procedural changes.3

Reach Early Consensus on the 2010 Design
The controversies surrounding the Census 2000 design help explain the added risk and increased
expense associated with this decennial and underscore why this experience must not be repeat-
ed. However, the situation facing the Bureau can best be understood by looking at what hap-
pened in 1990.

For example, the 1990 decennial was expensive and labor intensive because of a lower than
expected response. Public cooperation for mailing back the census form was only 65 percent in
19904—down from 78 percent in 1970 and 75 percent in 1980. The low response rate required
                                                            more intensive follow-up operations
                                                            than anticipated. The Bureau needed
  “The design should be clearly                             additional appropriations for the extra
                                                            fieldwork and additional time to com-
 defined; its costs, benefits, and                          plete the count. Despite the extra
  rationale articulated; its risks                          time and money, accuracy of the 1990
                                                            results decreased from that of 1980.5
      and issues identified.”
                                                             Particularly alarming to Congress and
                                                             other stakeholders was the increase in
the differential undercount in 1990—a disproportionate number of the people missed in Census
1990 were minorities. While the national net undercount was 1.6 percent, rates among minorities
were as follows: African Americans, 4.4 percent; Hispanics, 5 percent; Asian and Pacific Islanders,
2.3 percent; and American Indians, 12.2 percent.

                                                                                           Spring 2002           5
                                                                                             U.S. Department of Commerce



  Improving Our
Measure of America:
     What
 Census 2000
Can Teach Us in
 Planning for
     2010
                      Congress convened a panel of experts from the National Academy of Sciences to address these
                      problems. The panel concluded that to contain costs and increase accuracy, the Bureau should
                      incorporate statistical sampling and estimation into the 2000 census design. NAS also suggested
                      that the Bureau reengineer the entire census process and its operations. Census agreed with these
                      recommendations and decided to include sampling and estimation, multiple response modes,
                      updated computing tools, and an improved national address file in the design. However, many in
                      Congress did not support the use of sampling for the decennial and believed that by improving
                      traditional enumeration procedures, Census could increase accuracy. Moreover, the NAS recommen-
                      dations—made in 1994—came too late to allow the Bureau enough time to develop and test the
                      design in 1995, as planned. These factors led to delays in decision making and planning that
                      would impact the entire Census 2000 process.

                      Continuing Concerns and Setbacks
                      In March 1995 our office assessed the status of the Census Bureau’s preparations for the 2000
                      decennial.6 We found that the Bureau was reengineering the design but did not have sufficient
                      time to test the changes. As a result, it had jeopardized its ability to meet its four goals of
                      restraining cost, increasing accuracy, achieving public acceptance, and meeting national data
                      needs.

                      With key components of the census design still under development in 1997, Congress rejected the
                      use of statistical sampling in the decennial. In November of that year, Congress passed the
                      Department of Commerce and Related Agencies Appropriations Act for 1998, which among other
                      things provided Census funding for fiscal year 1998 under the condition that the Bureau develop a
                      nonsampling plan and test it at one of the three dress rehearsal sites. A month later, in December
                      1997, the OIG completed an assessment, requested by the Chairman of the Committee on
                      Commerce, Science and Transportation, of the Bureau’s initial design for 2000, which included
                      sampling.7 We analyzed key aspects of the strategy and concluded that while each component had
                      its own set of risks, the most significant problems were the design’s overall complexity and the
                      limited time frame for implementation. We recommended that the Bureau prioritize the impor-
                      tance of the major components, such as sampling, the Master Address File (MAF), and data cap-
                      ture; assess their readiness for implementation; simplify the design; and reevaluate the cost.

                      1998 Dress Rehearsal Testing of Still-Fluid Design
                      The dress rehearsal for Census 2000 was conducted in the spring of 1998 at three locations:
                      Sacramento, California; Columbia, South Carolina; and the Menominee American Indian
                      Reservation in Wisconsin.8 These rehearsals were the Bureau’s only opportunity for testing the
                      operation and interrelationships of the various decennial components. Given the importance of
                      the dress rehearsal, major elements of the design should have been finalized prior to the rehears-
                      al, but were not. Instead, because of Congress’s mandate, the Bureau had to test two designs—one
                      based on sampling (Sacramento) and the other on nonsampling (Columbia). Another key compo-


          6           Spring 2002
Office of Inspector General



                                                                                                         Improving Our
                                                                                                       Measure of America:
                                                                                                            What
                                                                                                        Census 2000
                                                                                                       Can Teach Us in
                                                                                                        Planning for
                                                                                                            2010
nent of the design, the Master Address File, was still in development and could not be completely
tested, but even the limited testing of the MAF revealed serious problems. For example, the MAF
did not include addresses for 24.6 percent of housing units at one site and contained duplicate
addresses for 14.8 percent of those at another.9

                                                                         1999 Supreme
                                                                         Court Ruling—A
     “The need to plan for two census                                    Finalized Design
   designs is an added complication but                                  Uncertainty about
   our plans for the Dress Rehearsal are                                 whether sampling would
                                                                         have a role in the 2000
   fully responsive…The Dress Rehearsal                                  census ended in January
                                                                         1999 when the Supreme
    operation will...pursue dual track.”                                 Court ruled that statisti-
                                                                         cal sampling could not be
      FORMER ACTING CENSUS BUREAU DIRECTOR
                                                                         used for congressional
                                                                         apportionment. With this
decision, the Bureau moved to finalize the decennial design. In so doing, it found that it needed
a huge infusion of funds to support the operations required to accomplish a total population
count. Accordingly, in June 1999, Census amended its original $2.8 billion FY 2000 decennial
budget and requested an additional $1.7 billion from Congress.

Given the difficulties in solidifying the design and the requirement to count 100 percent of the
population, the escalation of costs for Census 2000 was inevitable. The Bureau contends that the
original FY 2000 decennial budget request reflected its plan to use statistical estimation for gath-
ering data from nonresponding households and for adjusting for undercounting and other coverage
errors. With sampling no longer an option, most of the $1.7 billion was needed to reach the hard-
to-count portions of the population—the Bureau estimated that its nonresponse follow-up work-
load would increase from 30 million housing units to 46 million.10 The additional funding was also
needed to expand advertising and other programs aimed at improving coverage.

Looking Forward to 2010
To its credit, the Census Bureau has already begun planning
its design for 2010. It intends to reengineer the address file        “We intend for Census
and associated mapping system and to collect data via the
short form and a continuous measurement instrument
                                                                  2000…to be the last decennial
known as the American Community Survey, and thus elimi-
nate the long form. We commend Census for these early
                                                                  census to include a long form.”
planning efforts. However, we caution that the Bureau can            FORMER CENSUS BUREAU DIRECTOR
only eliminate the long form if it receives sufficient funding


                                                                                       Spring 2002           7
                                                                                             U.S. Department of Commerce



  Improving Our
Measure of America:
     What
 Census 2000
Can Teach Us in
 Planning for
     2010
                      for ACS over the decade to preserve the minimum needed sample size; attains adequate response
                      rates and data quality; and keeps the address file and mapping system current and complete
                      enough to support the survey.

                      The National Academy of Sciences shares our concerns regarding the Bureau’s intention to elimi-
                      nate the long form:

                          The validity of this assumption appears to depend on the
                          further assumption that the ACS and MAF/TIGER initia-
                          tives will be fully funded over the entire decade. The
                          panel believes that it would be prudent to approach
                          2010 planning with a contingency plan. That is, the
                                                      Bureau should consider its pos-
                                                      sible responses under various
                                                     funding scenarios (for instance,
                                                     that the ACS is funded only in
                                                     the early part of the decade
                                                     rather than throughout the
                                                     decade) and have contingency
                                                     plans for those possibilities.11

                                                   We believe that in its planning, the Bureau should seek to maximize
                                           the benefits of the ACS for the 2010 decennial, even if the long form cannot
                      be eliminated. To this end, Census should consider whether ACS and decennial long-form staffs
                      could share methods, standards, and resources: Is it possible and practical for them to use the
                      same questionnaire content and layout; sample design; and data collection and processing meth-
                                                         ods and technologies? Could the sample size for the long form
                                                         be reduced if the full ACS sample size cannot be attained? To
                                                         the extent that the ACS and Census 2010 long form share com-
                                                         mon elements, decennial costs will be minimized and efficien-
                                                         cies achieved. This approach would enable the Bureau to begin
                                                         acquiring decennial systems early and incrementally, as needs
                                                         and requirements are understood, and to prepare a contingency
                                                       plan for using the long form.

                                                        Obtain Sufficient Funding
                                                      Early and consistent funding for the next decennial is essential to
                                                      (1) support timely implementation of the design, (2) adequately
                                               prepare for mid-decade and dress rehearsal testing, (3) allow for acquisi-
                      tion of major systems, and (4) ensure that a planning team is in place to coordinate and manage
                      the decennial census. In the past, the Bureau has received the bulk of its funding at the end of


          8           Spring 2002
Office of Inspector General



                                                                                                        Improving Our
                                                                                                      Measure of America:
                                                                                                           What
                                                                                                       Census 2000
                                                                                                      Can Teach Us in
                                                                                                       Planning for
                                                                                                           2010
the decade, just prior to conducting the census. During fiscal years 1983 and 1984, we reported
that the Bureau’s planning efforts for 1990 had started late, primarily because funding was not
forthcoming. As a result, early planning activities and documentation for that decennial were
insufficient, and the Bureau did not have time to fully test and evaluate procedures before con-
ducting the dress rehearsal. During the years most critical to the planning effort—1990 through
the dress rehearsal in 1998—the Bureau received only about 3 percent of the total life-cycle
appropriation.12 We believe that a higher percentage of life-cycle costs should be requested during
the planning years to avert last minute budget requests and high-risk approaches.

Looking ahead, senior Census Bureau officials have emphasized the need to better align the plan-
ning and funding cycles. Although Congress may find it difficult to change the basic pattern for
decennial funding, past decennials illustrate that failure to provide adequate funding throughout
the decade will diminish the Bureau’s ability to control costs and ensure the accuracy of Census
results.




                                                                                       Spring 2002          9
                                                         U.S. Department of Commerce



  Improving Our
Measure of America:
     What
 Census 2000
Can Teach Us in
 Planning for
     2010




             ”If the address list is incomplete
   or inaccurate, people may be missed. If it includes
  duplicate addresses, they will be counted more than
       once. Such errors increase costs by requiring
    follow-up to nonexistent or duplicate locations.”



        10            Spring 2002
Office of Inspector General




                              Lessons Learned                                                            Improving Our
                                                                                                       Measure of America:
                                                                                                            What
                                                                                                        Census 2000
                                                                                                       Can Teach Us in
                                                                                                        Planning for
                                                                                                            2010
Lesson 2: Produce Accurate, Complete Address Lists and Maps
The success of a census ultimately depends on the accuracy of address information used to contact
respondents. If the address list is incomplete or inaccurate, people may be missed. If it includes
duplicate addresses, they may be counted more than once. Such errors increase costs by requiring
follow-up to nonexistent or duplicate locations. To locate households during the 2000 decennial,
the Bureau created a database called the Master Address File and linked each address in the MAF
to its geographic location in a mapping system known as TIGER (Topologically Integrated
Geographic Encoding and Referencing). This process allowed Census to identify the specific loca-
tion of each housing unit, to create maps, and to facilitate redistricting once the survey results
were tabulated. Using the MAF, the Bureau mailed census forms to more than 100 million house-
holds across the country.

We found that Census did not establish procedures that would adequately ensure the MAF’s accu-
racy and completeness, and thus used an error-prone database to conduct the decennial.13
Numerous addresses did not link to the correct location in the TIGER file, which hampered the
Bureau’s ability to accurately determine a housing unit’s location. Some errors in the file occurred
because address verification plans were flawed. For example, the Bureau did not have time to veri-
fy the accuracy of millions of addresses sent in by local governments but nevertheless included
these unverified addresses in the MAF. In addition, Census modified its software for eliminating
duplicate addresses in an effort to improve its coverage of multiunit housing such as trailer parks
and apartment buildings. However, the change allowed many suspected duplicate addresses to
remain in the address file. Our analysis of a small sample of MAF addresses for one county indicat-
ed a high number of errors. We found duplicate addresses, as well as addresses for nonexistent
houses and uninhabited apartment complexes. Maps often contained duplicate and missing
streets, and were not always printed in a usable size and format.

Concerned about the quality of the MAF, the Bureau reviewed census results to identify duplicate
enumerations. It isolated more than 2 million addresses (which accounted for some 6 million peo-
ple) as possible duplicates and removed them from the decennial file while it sought to verify
whether these enumerations were in fact double-counts. Subsequently, the Bureau determined
that 2.4 million of the suspected duplicates were valid and added them back into the census
totals. This process of identifying and removing duplicates from the census totals was necessary,
but required the Bureau to develop and implement last-minute procedures on the fly. These extra
steps added risk to the census process. Similar situations must be avoided in 2010.

The Master Address File is crucial to the success of the decennial, and Census plans to spend hun-
dreds of millions of dollars to improve it and the associated mapping system for 2010. The Bureau
is attempting to take advantage of current and emerging technologies for managing these tools.
We agree that improvements are essential and urge the Bureau to establish performance measures
for MAF accuracy and completeness, to periodically test the address file against these goals, and to
report to decision-makers on the status of the improvement efforts. These steps, taken throughout
the decade, should help ensure that the MAF is fully reliable for Census 2010.

                                                                                        Spring 2002         11
                                                         U.S. Department of Commerce



  Improving Our
Measure of America:
     What
 Census 2000
Can Teach Us in
 Planning for
     2010




                                     “The ad campaign
                                     helped the Census
                                     Bureau reach into
                                    communities with a
                                     strong message of
                                      community pride
                                          and civic
                                       participation.”
                                       CENSUS BUREAU




        12            Spring 2002
Office of Inspector General




                              Lessons Learned                                                          Improving Our
                                                                                                     Measure of America:
                                                                                                          What
                                                                                                      Census 2000
                                                                                                     Can Teach Us in
                                                                                                      Planning for
                                                                                                          2010
Lesson 3: Conduct a Carefully Targeted and Aggressive
Public Awareness Campaign
Generating a high return rate for mailed questionnaires is critical to keeping census costs down
while maximizing coverage and accuracy: the higher the mail-back rate, the fewer the households
that will require nonresponse follow-up and the lower the total cost of the census. In addition to
cost considerations, questionnaires returned by mail tend to contain more complete information
than do forms completed by enumerators.

The Census Bureau had projected that the response rate for mailed forms in 2000 would be lower
than that in 1990. Hoping to improve this projection, the Bureau developed a two-pronged public
relations program that combined a national paid advertising campaign—the first-ever to be con-
ducted by Census—with a local government partnership initiative.14
The impressive advertising campaign blanketed the country with
more than 250 ads in 17 languages in an effort to reach every
household, including those in historically undercounted popula-
                                                                           “What’s in it for me?”
tions; alert residents to the impending arrival of census forms; and     became the strategy and
convey the importance of mailing the survey back. The partnership
project created more than 140,000 alliances between the Bureau          core of the paid advertising
and state and local governments to develop community-level pro-
grams to educate individuals about the census and encourage them         campaign. And from this
to complete and return the questionnaire.
                                                                         was born the campaign’s
Census 2000’s paid advertising and partnership campaign achieved          tag line: “Census 2000.
its intended goal—the response rate of 67 percent surpassed the
1990 response rate of 65 percent, despite projections of lower par-         This is your future.
ticipation. The campaigns should be repeated for 2010, and perhaps
expanded to reach greater numbers of people from hard-to-count             Don’t leave it blank.”
populations.

However, ineffective components of the publicity effort should be eliminated or redesigned. The
Be Counted program, for example, sought to improve coverage in hard-to-enumerate areas by mak-
ing forms available at public places such as health clinics, employment assistance centers, and
churches. The program failed to substantially improve response rates. According to the Bureau, Be
Counted’s impact on net coverage during the decennial for any group was minimal.15

We believe that the Bureau must reevaluate whether the Be Counted program can be a cost-effec-
tive tool. In addition, it must find other ways to increase response rates among hard-to-count
populations and, through research and testing, demonstrate that proposed programs can achieve
the desired goals.



                                                                                       Spring 2002        13
                                                            U.S. Department of Commerce



  Improving Our
Measure of America:
     What
 Census 2000
Can Teach Us in
 Planning for
     2010




    “[Nonresponse follow-up in Hialeah] had been disorganized from
      day one and worsened because top mangers approached the
     national census like it was the Daytona 500, cutting corners in
          a race to take the checkered flag of head counting…
       They wanted to finish first” said an assistant crew leader.
         “But you know what? The first ended being the worst.”
                                    MIAMI HERALD 7-20-00.




        14            Spring 2002
Office of Inspector General




                              Lessons Learned                                                            Improving Our
                                                                                                       Measure of America:
                                                                                                            What
                                                                                                        Census 2000
                                                                                                       Can Teach Us in
                                                                                                        Planning for
                                                                                                            2010
Lesson 4: Strengthen Quality Control of Nonresponse
Follow-up
The quality of census data came under attack during Census 2000. Negative newspaper headlines
drew national attention to problems with collection operations in several areas. Accusations of
wrongdoing at times were well founded. Several local offices reported problems with data quality,
and we were able to confirm such problems at three Florida locations—Hialeah, Homestead, and
South Broward.16 Because of these findings, the Bureau had to reenumerate more than 67,000
households. Census also experienced quality control problems in 1990. In that instance, because
enumerators did not collect complete household information, the Bureau had to survey 129,000
households a second time.

To control the quality of data collected by enumerators
in Census 2000, the Bureau implemented a reinterview
operation to identify census-takers who falsified data
or needed additional training in proper collection tech-
niques. Under this process, a sample of each enumera-
tor’s work was to be verified via telephone call or per-
sonal visit by a second interviewer (“the reinterview-
er”). If it was determined that information had been
falsified, the reinterviewer would notify the office man-
ager, who was supposed to fire the employee and redo
all of the employee’s work. However, we found that this
process did not always function as intended. The
improvements detailed below should help ensure the
quality of data collected in future decennials.

   • Continue to select a sample of questionnaires
     for reinterview throughout nonresponse follow-
     up. For Census 2000, the Bureau selected ques-
     tionnaires for reinterview primarily at the beginning of nonresponse follow-up, leaving
     itself vulnerable to falsifications and mistakes that occurred later in the operation—when
     the pressure to complete questionnaires was greater.

   • Improve local offices’ handling of reinterview forms to ensure that selected question-
     naires are verified. Data from hundreds of questionnaires selected for reinterview examina-
     tion was never verified either because the questionnaires were sent to the data capture cen-
     ters before the information had been transcribed onto a reinterview form or because the
     reinterview questionnaire itself was lost in the field. At one local office, we found stacks of
     summary reinterview sheets that the supervisor did not review and sign until the last day of
     nonresponse follow-up—far too late in the process to identify falsifiers and redo their work.



                                                                                        Spring 2002         15
                                                                                            U.S. Department of Commerce



  Improving Our
Measure of America:
     What
 Census 2000
Can Teach Us in
 Planning for
     2010
                         • Separate the reinterview process from the field operation it is evaluating. During Census
                           2000, we noted that the same manager oversaw both collection and verification of informa-
                           tion. Given the pressure to complete fieldwork within a tight time frame, there exists the
                           temptation to keep additional work to a minimum. Ignoring possible instances of data falsifi-
                           cation would lessen the LCO’s workload. To avoid this temptation and to ensure that there is
                           a separation of duties, which would minimize this conflict, local offices should have one
                           manager for overseeing information collection and another for overseeing verification.

                         • Develop a management reporting process for quality assurance. Census did not have a
                           real-time management reporting system for the reinterview operation, and therefore could
                           not readily assess the effectiveness of the program.




        16            Spring 2002
Office of Inspector General




                              Lessons Learned                                                          Improving Our
                                                                                                     Measure of America:
                                                                                                          What
                                                                                                      Census 2000
                                                                                                     Can Teach Us in
                                                                                                      Planning for
                                                                                                          2010
Lesson 5: Implement Clear Policies and Guidance for
Managing Temporary Staff
Imagine the logistics of opening and managing 520 temporary local offices, of hiring nearly 1 mil-
lion employees and overseeing the extensive field operations they performed—promotion, out-
reach, group quarters enumeration, and nonresponse follow-up, to name a few. These were the
challenges facing the Bureau for Census 2000.

Field operations are the backbone of the decennial and are thus critical to its outcome. The
Bureau’s experience with the temporary office and staffing operations during this past decennial
provides insight for improvements in 2010.

Encouraging an Open Dialogue Between Field Staff and Headquarters
Permanent and temporary employees staff the 12 regional census centers, which provide a crucial
communications link between headquarters in Suitland, Maryland, and the local offices. Regional
staff we spoke with indicated that communication
between the regions and headquarters had improved
during the last decennial, as compared to previous
decennials. They attribute this improvement, in part,
to the Bureau’s selection of a well-respected Regional
Director to temporarily fill in as the Acting Census
Director in 1998 and to Headquarters managers who
involved the regions more in the planning and develop-
ment of the 2000 census. We commend the Bureau for
having fostered this improved relationship between the
field and headquarters. It must do all it can to keep
the lines of communication open as planning for 2010
continues.

Enhancing Security and Safety Procedures
In the aftermath of the April 1995 Oklahoma bombing and the September 11 terrorist attacks,
government agencies across the board are evaluating safety and security measures against more
rigorous standards and overhauling procedures to meet them. Although we did not formally review
safety and security for Census 2000, we observed that the Bureau did require enumerators to take
precautions, such as notifying the police and working in pairs or groups when enumerating areas
considered unsafe. These measures may have been adequate for Census 2000. But given the post-
September 11 demands for improved security, the Bureau should reassess its safety and security
practices for the 2010 census.




                                                                                      Spring 2002         17
                                                                                            U.S. Department of Commerce



  Improving Our
Measure of America:
     What
 Census 2000
Can Teach Us in
 Planning for
     2010
                      Improving Management of Temporary Employees
                      Managing 950,000 temporary workers is a huge and difficult task. The experience of Census 2000
                      pointed up some specific challenges that the Bureau must address for the 2010 decennial in order
                      to enhance staffing operations.

                         • Develop clear policies for reimbursing overtime. Policies, procedures, and practices for
                           overtime pay generated numerous complaints during and after Census 2000, and the Bureau
                           must reassess and refine these policies for 2010. Keeping overtime costs down is an impor-
                           tant budgetary control. Census must do a better job of establishing workflow procedures that
                           enable employees to accomplish their tasks, but allow for overtime when warranted.

                         • Carefully document performance problems and terminate unsatisfactory employees.
                           During the 1990 decennial we found that census managers often did a poor job of document-
                           ing performance problems and as a result had to pay questionable unemployment claims.
                           Learning from 1990, the Bureau had a strict policy for documenting performance problems
                           during the 2000 decennial17 and, as a result, successfully refuted 92 percent of 4,747 ques-
                           tionable unemployment compensation claims. The Bureau must maintain this policy for
                           2010, and continue to stress to local office managers and staff the importance of identifying
                           poor performers, completing termination forms, and entering all documentation into an
                           employee’s termination file. These procedures will enable Census to deny unemployment
                           compensation to employees terminated for cause and prevent reassignment of unsatisfactory
                           workers to other local offices.

                           Census appeared to have adequate termination procedures. However, local managers did not
                           always terminate unsatisfactory employees but, instead would refrain from assigning them
                           new work. Some managers were reluctant to terminate out of concern that the separated
                           employee would be unable to find another job. Others were put off by the amount of time
                           and paperwork involved in terminating workers and justifying the action. By failing to prop-
                           erly identify and terminate unsatisfactory employees, managers enabled poor performers to
                           qualify for unemployment benefits and reassignment to other LCOs.

                         • Establish traceable procedures for transferring enumerators. Census routinely sent enu-
                           merators from local offices that were meeting or exceeding nonresponse follow-up schedules
                           to those that lagged behind. This policy seemed to be an effective way to improve produc-
                           tion, but it complicated management attempts to monitor an enumerator’s work. Some reas-
                           signed enumerators submitted their daily payroll sheets to their original office but gave the
                           questionnaires completed during that work time to the office to which they were reassigned.
                           In these cases, neither office was able to assess the enumerators’ productivity against their
                           hours worked. In addition, managers had no written guidance on whether to reassign indi-
                           vidual enumerators or entire teams (enumerators, crew leaders, and field office supervisors).



        18            Spring 2002
Office of Inspector General




                              Lessons Learned                                                           Improving Our
                                                                                                      Measure of America:
                                                                                                           What
                                                                                                       Census 2000
                                                                                                      Can Teach Us in
                                                                                                       Planning for
                                                                                                           2010
Lesson 6: Determine Whether Sampling Has a Role Beyond
Measuring Coverage
The issue of whether to use statistical sampling to improve coverage was perhaps the most contro-
versial aspect of Census 2000. Not only did the Supreme Court rule that sampling could not be used
for apportionment, but the Bureau’s recent analysis has been unable to prove that sampling will
improve coverage. Sampling was also an issue in 1990, when the Secretary of Commerce decided
not to release adjusted census counts because of data concerns. Given this history, we believe that
the Bureau must determine, at the earliest possible time, the following for 2010: Does sampling
have any purpose other than being a quality check to measure coverage? This decision is important
for decennial planners because the role of sampling impacts both the cost and schedule for con-
ducting a decennial census.

Census had planned to use sampling in 2000 to correct some of the deficiencies identified in earli-
er decennials—namely, the drop in coverage and the escalation in cost that occurred between
1970 and 1990. After the Supreme Court ruled in January 1999 that sampling could not be used
for congressional apportionment, the Bureau continued to plan the Accuracy and Coverage
Evaluation, believing that in addition to measuring coverage, sampling could yield more accurate
data for other public purposes, such as redistricting and the allocation of federal funds.18

In the 2000 decennial, A.C.E. was conducted as an independent sample of 315,000 housing units
located throughout the 50 states, the District of Columbia, and Puerto Rico. The Bureau inter-
viewed unit residents either by phone or in person to determine whether they should have been
counted at the sample address on Census Day and whether those counted on that day had since
moved. The A.C.E. data was then matched to corresponding census data collected for each housing
unit. Once matched and reconciled, A.C.E. data yielded an estimate of the population missed in
the census, while the corresponding census sample yielded an estimate of the number of people
correctly enumerated. Taken together, these two components provide an estimate of census cover-
age, or “adjusted census counts.” 19

The Bureau initially thought that A.C.E. estimates would give states more accurate data for redis-
tricting. However, because of inconsistencies between demographic benchmarks and A.C.E. esti-
mates of the population count, Census was unable to conclude whether the adjusted data was
more accurate than the unadjusted data.20 Therefore, in March 2001, unadjusted counts were
released to the states for use in redistricting, but the Bureau continued to evaluate A.C.E. In
October 2001, it reported that A.C.E. had a significant number of erroneous census enumerations,
many of which were duplicate persons, and as a result, unadjusted census counts remained more
accurate than the adjusted data.21 Nevertheless, the Bureau has not given up on A.C.E. and
believes that with further research and analysis, the data that has been collected can be revised
to provide accurate estimates for use by other federal agencies.




                                                                                       Spring 2002         19
                                                                                           U.S. Department of Commerce



  Improving Our
Measure of America:
     What
 Census 2000
Can Teach Us in
 Planning for
     2010
                      The Bureau had a similar experience trying to adjust census counts in 1990 using the Post
                      Enumeration Survey (PES). In that case, the Secretary of Commerce decided against using adjusted
                      data because it did not meet specified adjustment criteria.22




        20            Spring 2002
Office of Inspector General




                              Lessons Learned                                                           Improving Our
                                                                                                      Measure of America:
                                                                                                           What
                                                                                                       Census 2000
                                                                                                      Can Teach Us in
                                                                                                       Planning for
                                                                                                           2010
Lesson 7: Implement Rigorous System and Software
Development Processes and Effective Information
Security Measures
     “The Bureau needs to mount a comprehensive analytic approach that includes a rigorous
     systematic development methodology. . . .” Senior Census Bureau Official

Information technology and related processes are among the most critical components of modern-
day decennials. Adhering to rigorous system and
software development standards and maintaining
information security are key to the census’ success     “An operation as huge and complex
and cost-effectiveness.
                                                          as the decennial census requires
Planning for the IT needs of 2010 and maintaining
secure information systems, networks, and data are
                                                        long lead times to allow for proper
important steps in the continuum of decennial             development and testing of the
operations. The Bureau must capitalize on the
experience of staff involved in Census 2000 while           project design and software,
memories of the challenges are fresh. These experi-
ences offer invaluable guidance for understanding             and to procure systems.”
2010 IT requirements. The Bureau also needs a
strict, cohesive process for system and software development that is supported by Census leader-
ship, planning, and training.

Development of information systems and software must conform to rigorous processes and
accepted standards. Census 2000 required computer systems that enabled the Bureau to locate
117 million housing units and collect and process responses for 281 million persons. The Bureau
relied on these systems to do the following:

   • Conduct field operations using a current address file and map data, and make additions,
     changes, and deletions to this information as necessary.

   • Create a database that used addresses and locations of residences to track such items as
     responding versus nonresponding households and incomplete responses.

   • Provide payroll services and management information to 520 local census offices.

   • Capture response data via a contractor-developed system installed at three contractor-man-
     aged centers and at the Bureau’s National Processing Center in Jeffersonville, Indiana.

   • Process data at headquarters, where response information for each housing unit was checked


                                                                                        Spring 2002        21
                                                                                                 U.S. Department of Commerce



  Improving Our
Measure of America:
     What
 Census 2000
Can Teach Us in
 Planning for
     2010
                             for multiple responses and then merged with housing unit location data to produce the con-
                             solidated census data file.

                           • Tally state counts for apportionment and tabulate counts from smaller geographic areas and
                             demographic subgroups for redistricting.

                       The technology that supports these initiatives must be built on a thorough analysis and definition
                       of user requirements and a defined and controlled development process.

                                                                Without exception, our IT-related reports issued through
  “…it is important that we give                                the decade have repeatedly recommended that the Bureau
                                                                restructure its software development efforts to employ a
   a high priority to IT security.”                             rigorous process and accepted engineering standards. We
                                                                reported that the Bureau’s development approach was not
               S E C R E TA R Y O F C O M M E R C E             based on well-established standards for preparing and
                                                                reviewing software specifications and design; conducting
                         rigorous, independent testing; and ensuring the uniform and effective use of development and
                         evaluation methods and tools. We also reported concerns about whether the processing power of
                         the Bureau’s computer systems was sufficient to support Census 2000 operations.23, 24, 25 As the cen-
                         sus progressed, system and software development and testing efforts faltered. GAO reported that,
                         as late as 3 months after the census questionnaires were mailed out, 17 of 48 software applica-
                         tions needed to process Census 2000 response data were still under development.26 Moreover, the
                         Bureau did not perform beginning-to-end, exhaustive stress testing of the computer applications
                         that processed decennial responses.

                       In the absence of rigorous development standards, software prod-
                       ucts are often ambiguously defined, completed behind sched-
                       ule, and subject to late-stage changes and cost increas-
                       es. Products whose requirements are not clearly spec-
                       ified cannot be adequately tested because there
                       are no exact criteria to measure against. These
                       improperly evaluated products are then put to
                       use in real situations, where their weaknesses
                       disrupt operations and spawn a rushed, ad
                       hoc approach to correcting the problems as
                       quickly as possible. In this environment, new
                       errors inevitably replace the old.

                       We found that because new and modi-
                       fied software developed for Census 2000
                       was not subject to sufficient control or
                       adequate testing, it was prone to error.


        22            Spring 2002
Office of Inspector General



                                                                                                          Improving Our
                                                                                                        Measure of America:
                                                                                                             What
                                                                                                         Census 2000
                                                                                                        Can Teach Us in
                                                                                                         Planning for
                                                                                                             2010
For example, faulty software caused the Bureau to supply enumerators with address listings that
had missing last names for some residents. This problem made it difficult for enumerators to
locate some nonrespondents during follow-up operations.

Census analysts described the impact of the late and changing software development process as
follows:

     “Developing production software concurrent with production activities introduces increased risk
     that cannot easily be compensated through additional resources, and in such an environment the
     burden falls on the few very experienced professionals to make on-the-spot decisions and correc-
     tions.” 27

The Census Bureau is seeking funds to address these problems for the 2010 decennial.

Providing effective information security is essential for the 2010 census. Under Title 13 of the
U.S. Code, the Census Bureau must protect from disclosure the data it collects about individuals
and establishments. Disclosing such information could undermine the success of future decennials
by damaging public confidence in the Bureau’s ability to protect the confidentiality of census
data, thus compromising the willingness of individuals to participate in the census. We evaluated
the security measures used by the Bureau to transmit Title 13 data over its dedicated circuits
(wide area network) and dial-up lines.28 We had major concerns about the adequacy of these meas-
ures and made recommendations to reduce the risk of disclosure. Given the inevitable increase in
Internet use and the Bureau’s own growing emphasis on electronic transmission of questionnaire
data, effective information security for Census 2010 is essential. The Bureau must adhere to rigor-
ous information security policies and procedures and be attuned to new threats and vulnerabili-
ties. It must incorporate emerging technologies, as appropriate, that will safeguard census-related
computer systems and networks from unauthorized access, and data from unauthorized disclosure
or modification.




                                                                                          Spring 2002        23
                                    U.S. Department of Commerce



  Improving Our
Measure of America:
     What
 Census 2000
Can Teach Us in
 Planning for
     2010




        24            Spring 2002
Office of Inspector General




                              Lessons Learned                                                             Improving Our
                                                                                                        Measure of America:
                                                                                                             What
                                                                                                         Census 2000
                                                                                                        Can Teach Us in
                                                                                                         Planning for
                                                                                                             2010
Lesson 8: Upgrade and Maintain Contracting and Program
Management Expertise
Experienced program managers supported by a well-trained management and contracting staff
must be in place before the Bureau enters into major contracts for decennial-related systems and
services. Over the years, our reports questioned the Bureau’s ability to acquire the critical systems
and services needed to successfully complete the 2000 decennial, such as the data capture system,
telephone questionnaire assistance, and leased space for hundreds of field offices. Ultimately,
these projects successfully supported Census 2000 operations but were more costly than necessary.

The Bureau’s initial effort to plan and manage acquisition of the data capture system is a case in
point. This system was critical to the decennial—responsible for scanning more than 100 million
questionnaires, correctly capturing and reading the data, and sending the information to head-
quarters for additional processing. In a September 1994 report we noted that the Bureau had yet
                                                                  to appoint a program manager
                                                                  for the procurement or to devel-
 “As the Department of Commerce                                   op an acquisition plan.29
increases its reliance on contractor-
                                                                In 1996 we again looked at the
  provided goods and services, the                              Bureau’s progress toward acquir-
                                                                ing the data capture system.30
     challenge of monitoring the                                Contract award had been sched-
   effectiveness of the acquisition                             uled for the fall of 1996 but had
                                                                been delayed until early 1997. In
       process grows as well.”                                  addition to the inherent risk in
                                                                the delay, we felt that the
       IG’S LIST OF TOP 10 MANAGEMENT                           Bureau’s strategy for bringing
              CHALLENGES FACING THE                             the system on board was prob-
             D E PA R T M E N T O F C O M M E R C E             lematic: Census intended to
                                                                select two contractors to design
and test prototype systems and on the basis of their performance, select the final contractor.
However, we believed that the primary goals of the data capture program—namely, achieving the
needed system capabilities and meeting the Census 2000 schedule—could best be achieved by
working closely with one competent contractor from the start.

We reported that the Bureau’s strategy of working with two contractors would extend the already-
delayed schedule, consume additional budget and staff resources, and severely limit Census man-
agement’s ability to communicate with the contractors for fear of inappropriately transferring
technical information from one to the other. We recommended that the Bureau award one con-
tract, develop a sound plan for procuring and managing the system, and establish a program man-
agement office staffed with personnel who had demonstrated experience in managing complex
systems acquisitions. We also recommended that the Bureau supplement its planned heavy

                                                                                        Spring 2002          25
                                                                                              U.S. Department of Commerce



  Improving Our
Measure of America:
     What
 Census 2000
Can Teach Us in
 Planning for
     2010
                      reliance on oral proposals and past performance with additional technical information on how the
                      offerors would satisfy the unique and complex requirements of the data capture system. The
                      Bureau implemented our recommendations and also established the Decennial Systems and
                      Contract Management Office to supervise other Census 2000 systems and contracts. It appointed a
                      qualified program manager and contracting officer to oversee acquisition and administration of the
                      data capture system.

                                                                     Despite these actions, a shortage of experienced
         ”The Bureau did not have                                    contract staff continued to be a problem. Vacancy
                                                                     announcements posted in April 1997 yielded little
   experience managing multi-million                                 response, reportedly because federal hiring con-
                                                                     straints prevented Census from offering permanent
   dollar service and supply contracts.                              positions and matching private industry salaries.
   Its on-board contracting staff had
                                                                      Although the data capture system succeeded in
  little experience with major systems                                meeting its processing deadlines and producing
                                                                      high-quality results, costs for the system increased
       acquisitions, and this lack of                                 almost fivefold, from a projected $49 million at the
        experience was a problem.”                                    time of contract award in 1997, to $238 million. It
                                                                      was recognized in 1997 that additional system
                                                                      needs remained to be defined and that costs would
                      increase. However, the degree of increase far exceeded the Bureau’s expectations, primarily
                      because of ever-changing and expanding requirements. Despite efforts by the program office to
                      stem the increase, demands came from other areas as decennial plans changed and new needs
                      were identified. More disciplined management of needs identification, supported by senior Bureau
                      staff, would have enabled the office to better control the requirements and the associated costs.

                      We reported in our evaluation of the data capture system’s performance for dress rehearsal that
                      the system’s contractor had planned to use rigorous and well-defined engineering procedures, but
                      abandoned these plans because of the continuing growth and change in Bureau requirements.
                      Instead, the contractor developed, tested, and deployed software and system components concur-
                      rently and on a short cycle that did not allow enough time to consistently apply sound engineer-
                      ing practices, including methodical testing. As a result, many problems that should have been
                      identified before the dress rehearsal were found as it occurred.31

                      The lack of sufficient contracting and program management expertise impacted numerous other
                      contract operations, as the following examples illustrate:

                         • Telephone questionnaire assistance. The Bureau contracted with a company to provide toll-
                           free telephone numbers that allowed the public to ask questions and complete the survey
                           over the phone. We found that the Bureau had not prepared a contract surveillance and
                           management plan because its program office had insufficient staffing and limited experience


        26            Spring 2002
Office of Inspector General



                                                                                                          Improving Our
                                                                                                        Measure of America:
                                                                                                             What
                                                                                                         Census 2000
                                                                                                        Can Teach Us in
                                                                                                         Planning for
                                                                                                             2010
     with large-scale contracts. These plans are important—they describe the responsibilities,
     roles, and interactions among the program office, contracting officer, and contractor, and
     thus help ensure that the contract is executed successfully and is not changed without
     authorization, and that the contractor performs as expected.32

   • Advertising campaign. The Bureau essentially assigned one contracting officer to award and
     manage the contract for its extensive publicity campaign. The officer was responsible for
     numerous tasks such as defining and clarifying requirements, monitoring costs, reviewing
     invoices, and negotiating task orders and contract changes. While the campaign was consid-
     ered a major operational success, the cost—which was originally estimated at $100 million—
     had almost doubled, to about $200 million, by the close of the decennial.

   • Leasing of office space for field operations. Census sought assistance from the U.S. General
     Services Administration (GSA) to procure space, telecommunications, supplies, and some
     office equipment, but shortsighted planning and management hindered these efforts, and
     the partnership with GSA ran into several problems.33 First, failure of the parties to sign a
     memorandum of understanding left open the possibility of misunderstandings and disagree-
     ments about costs. While such problems did not materialize in 2000, a signed memorandum
     of understanding should be in place for 2010 to protect the Census Bureau’s interests.
     Second, Bureau delays in finalizing its requirements, in particular its telecommunications
     needs, delayed the opening and operation of some local offices. Third, because the Bureau
     defined the geographic locations for its LCOs too narrowly, it limited competition for its busi-
     ness. Consequently, during the first phase of office leasing, the lease offers it did receive
     were more expensive than anticipated, and the Bureau lost valuable time seeking more
     affordable space. Subsequently, for phases 2 and 3, the Bureau broadened the geographic
     location for the leasing of LCOs. This change increased competition and gave the Bureau
     more options for locating LCOs.

   • Error in prenotification letter. The Bureau used the Government Printing Office to contract
     for the printing of decennial census questionnaires. GPO, in turn, selected a variety of com-
     panies to provide these services. One of these contractors printed and mailed out approxi-
     mately 20 million misaddressed letters informing households that the decennial question-
     naires would soon follow. The mistake—an extra digit at the beginning of each street
     address—was the result of a problem with the contractor’s printing program. Despite the
     error, the Postal Service was able to deliver the letters, but the Bureau still incurred unnec-
     essary negative publicity just weeks before census forms were to be mailed out. Bureau offi-
     cials told us that quality assurance procedures for census operations did not cover the print-
     ing of addresses on envelopes. For 2010, the Bureau needs to ensure that the quality and
     accuracy of all census materials, including envelopes, are carefully monitored.

Experiences such as these underscore the importance of contracting and program management
expertise to the success of the 2010 decennial. The Bureau reports that it is taking steps to main-
tain the organization and critical staff needed to manage Census 2010 contracts.

                                                                                        Spring 2002          27
                                    U.S. Department of Commerce



  Improving Our
Measure of America:
     What
 Census 2000
Can Teach Us in
 Planning for
     2010




        28            Spring 2002
Office of Inspector General




                              Lessons Learned                                                           Improving Our
                                                                                                      Measure of America:
                                                                                                           What
                                                                                                       Census 2000
                                                                                                      Can Teach Us in
                                                                                                       Planning for
                                                                                                           2010
Lesson 9: Generate Timely, Accurate Management and
Operational Information
The decennial census is one of the most comprehensive and important information-
gathering activities conducted by the federal government: the data it collects has wide-ranging
impact on governing institutions and local communities. The effectiveness of the Bureau’s man-
agement information system impacts the effectiveness of the decennial process and the integrity
of data. This system must provide timely and accurate administrative and operational details to
the Bureau personnel who manage the decennial census, as well as information to those who
monitor it—Congress and oversight groups (GAO, the Census Monitoring Board, and the OIG). Only
with such information can these individuals and organizations evaluate census performance, make
informed decisions about operational changes that may be needed as the census progresses, and
help improve future decennials. Because of weaknesses in the management information system
                                                                that supported the 2000 census,
                                                                Bureau managers did not always
   …the Bureau must ensure that                                 have the decision-making infor-
                                                                mation they needed.
  resources are specifically provided
                                                                  Oversight groups had great diffi-
    for adequately communicating                                  culty obtaining timely informa-
      and coordinating with the                                   tion on the status and effective-
                                                                  ness of decennial operations,
      numerous oversight bodies.                                  with many weeks passing
                                                                  between their request for infor-
                                                                  mation and receipt of it. As a
result, oversight bodies frequently complained of being kept in the dark about operational
progress and financial resources expended; Bureau managers complained about disruptions caused
by the information requests. Given the importance of the census and the amount of taxpayer dol-
lars required to conduct it, the Bureau needs to be prepared to handle huge demands for informa-
tion, both internally and externally. For the 2010 decennial census, the Bureau must ensure that
resources are specifically provided for adequately communicating and coordinating with the
numerous oversight bodies, and establish and maintain management systems that fully disclose
real-time, reliable, and accurate financial and operational information.

The inability to provide timely and accurate information during Census 2000 proved particularly
troublesome in three areas—proxy questionnaire data analysis, productivity reporting, and hours
worked by enumerators.

Proxy questionnaires. When enumerators are unable to survey the occupant of a unit, they gath-
er “proxy” information from knowledgeable neighbors. Too many proxy questionnaires are an indi-
cation that enumerators are having problems collecting data—a situation that requires immediate
attention.

                                                                                       Spring 2002         29
                                                                                              U.S. Department of Commerce



  Improving Our
Measure of America:
     What
 Census 2000
Can Teach Us in
 Planning for
     2010
                      During Census 2000, the Bureau failed to track and analyze proxy questionnaire data—thus
                      depriving itself of a critical management tool for assessing the integrity of nonresponse follow-up
                      operations. Had the Bureau monitored proxy data, it would have recognized enumeration irregu-
                      larities in Hialeah, Florida, where the local census office sanctioned inappropriate use of proxy
                      questionnaires and abused other procedures. As a result of these actions, Census had to complete-
                      ly reenumerate the Hialeah district.

                      The number of LCOs that allowed similar improprieties will never be known because data from
                      proxy questionnaires was unavailable during the nonresponse follow-up operation. In 2010, the
                      Bureau must closely monitor this data collection category to avoid repetition of these abuses.

                      Productivity. Data reflecting enumerator productivity was flawed by the failure of some enumera-
                      tors to properly code completed questionnaires for data entry. Enumerators were required to com-
                      plete the interview summary section of the questionnaire, which provided the status of the hous-
                      ing unit (vacant or occupied), the number of residents, and the willingness of occupants to pro-
                      vide information. Local offices used these summaries to generate productivity reports. Bureau
                      managers used the reports to monitor and oversee nonresponse follow-up operations—comparing
                      data among local census offices that had similar characteristics, identifying irregularities, and
                      measuring the quality of data collected. Reports that showed a large number of partial interviews
                      or refusals gave warning that enumerators might be improperly trained or falsifying data.

                      In several LCOs, enumerators incorrectly designated their interviews as “COs” (“closeout proce-
                      dures”), thinking the code (which is not defined on the form) meant that an interview had been
                      “completed.” In fact, during closeout procedures, only unit status and population counts for
                      households are collected, and these procedures may not be used until 95 percent of an LCO dis-
                      trict has been enumerated. Because some interviewers mistakenly coded their forms as COs
                      throughout nonresponse follow-up, the data from these questionnaires was not useful.

                      This problem could easily be rectified for 2010 by revising the questionnaire status section of the
                      form to include definitions of each code. At present, enumerators who are unsure of a code’s
                      meaning and use must consult the enumerator training manual to find an explanation. During
                      Census 2000, many obviously failed to take this step. Ready access to the needed information
                      right on the form would greatly reduce the chance for error.

                      LCO staff hours. Some local census offices miscoded the time worked by assistant crew leaders as
                      time worked by enumerators during nonresponse follow-up. This mistake inflated tallies for time
                      worked and compensation received by enumerators—adding some 3.6 million hours and at least
                      $29.7 million in wages (based on the lowest hourly pay of $8.25)—and thus compromised the
                      value of the data for assessing staff-related expenditures versus output.34 For 2010, the time
                      entered into the payroll system for crew leader assistants and enumerators needs to be accurate.




        30            Spring 2002
Office of Inspector General



                                              Improving Our
                                            Measure of America:
                                                 What
                                             Census 2000
                                            Can Teach Us in
                                             Planning for
                                                 2010




                              Spring 2002        31
                                    U.S. Department of Commerce



  Improving Our
Measure of America:
     What
 Census 2000
Can Teach Us in
 Planning for
     2010




        32            Spring 2002
Office of Inspector General




                              Lessons Learned                                                            Improving Our
                                                                                                       Measure of America:
                                                                                                            What
                                                                                                        Census 2000
                                                                                                       Can Teach Us in
                                                                                                        Planning for
                                                                                                            2010
Lesson 10: Mitigate Potential Disruptions and Distractions to
the Work Environment and Workforce
Each decennial brings new challenges—some foreseen, others unexpected—that the Bureau must
be prepared to handle. By learning from prior censuses, the Bureau has positioned itself through
the decades to anticipate and diffuse potential problems that may emerge during the decennial
process. Demographic and technological changes have required major strategy modifications. For
example, for the 1970 decennial, Census determined that it could not effectively enumerate the
population through personal visits alone. It reengineered the 1970 design, moving to self-response
mailings as the primary mode of data collection—a strategy still in place today.

The Bureau is already aware of two challenges it must prepare for in planning and executing the
2010 decennial: a looming skills drain from its census management pool and a major relocation.
Strategies for meeting these challenges should be in development now.

Over the coming decade, the Bureau could lose to retirement roughly 50 percent of the senior
staff who oversaw the 2000 count. Census is fortunate to have a dedicated core group of career
managers and senior staff whose mission-critical expertise has been built over decades of develop-
ing, refining, and conducting successive decennials.

The impending retirement of many of these key employees—field supervisors, technical managers
for data processing, senior statisticians, and other census leaders—has the potential to decimate
the ranks of decennial experts from all operational areas. Specifically, the Bureau faces losing
institutional knowledge, which will increase work backlogs and create skill imbalances. All of
these impacts can affect its ability to plan and conduct the 2010 census. To minimize the impact
of these problems, the Bureau must meet them head-on by developing a comprehensive workforce
plan now that will identify critical needs for 2010 and offer realistic solutions to meeting them.

Also during this decade, Census will move to its new headquarters facility, which is scheduled for
occupancy in 2008. The Bureau must be prepared to accomplish this move with minimal disrup-
tions to decennial planning. Its relocation strategy must clearly define and diffuse potential prob-
lems; identify measures to contain costs; and offer fail-safe methods for keeping decennial prepa-
rations on schedule.




                                                                                        Spring 2002         33
                                                                                             U.S. Department of Commerce



  Improving Our
Measure of America:
     What
 Census 2000
Can Teach Us in
                      Conclusion
 Planning for
     2010
                      The decennial census is a barometer of change in America—it measures our changing numbers,
                      our changing ethnic/racial composition, and our changing choices about where to live. It meas-
                      ures how old we have become, how much we earn, how educated we are. It gauges whether we are
                      single or married, have children, are native-born or came from abroad. It calculates how many
                      other Americans at a particular point in time share these and other characteristics with us.
                      Ultimately, it impacts how we are represented in government and how our tax dollars are spent.

                      For the past 22 decades, the Census Bureau has by and large captured these changes successfully
                      via the decennial process, and—with careful attention to the lessons learned from this decenni-
                      al—it will no doubt succeed in doing so again in 2010. The Bureau is already taking steps on a
                      number of fronts: It is developing a census design and revamping the Master Address File. It has
                      evaluated and begun enhancing its public outreach campaign. It continues to assess and refine
                      the role of sampling. It is working to maintain the critical management skills it needs to oversee
                      census contracts. And it is seeking funds to improve its IT development processes.

                      As has been our practice for past censuses, the Office of Inspector General will monitor and evalu-
                      ate the Bureau’s efforts to improve decennial operations and prepare for the next census, and we
                      will offer guidance to support and enhance its readiness.

                      In the final analysis, many of the “lessons learned” we have discussed in these pages have rele-
                      vance beyond the upcoming decennial, and are likely to remain key components of sound plan-
                      ning for decades to come. The extent to which the Census Bureau applies them to emerging condi-
                      tions and evolving trends will help determine how effectively it accomplishes the major mission
                      with which it has been charged—developing a composite picture of America via the decennial
                      census.




        34            Spring 2002
Office of Inspector General




                                                                                          Notes                            Improving Our
                                                                                                                         Measure of America:
                                                                                                                              What
                                                                                                                          Census 2000
                                                                                                                         Can Teach Us in
                                                                                                                          Planning for
                                                                                                                              2010
1 Weather conditions require that the remote Alaskan enumeration be conducted in January 2000.

2 Waite, Preston J., Obenski, Sally M., Buckley, Lisa E., 2010 Census Planning: The Strategy, 2001.

3 Final Report on Cost-Benefit Analyses for Decennial Improvements From 1970 to 1980, AIS-6-55, Department of
  Commerce Office of Inspector General, November 1986, p. 6.

4 This 65 percent is the response rate, which represents the percentage of forms returned out of the total number
  mailed out. The return rate, available later, excludes vacant and nonexistent housing units. In 1990 the return rate
  was 74 percent.

5 2000 Decennial Census: Expanded Targeted Questionnaire Program May be Unnecessary and Counterproductive,
  Department of Commerce Office of Inspector General, ESD-9610-7-0001, September 1997.

6 Inadequate Design and Decision Making Process Could Place 2000 Decennial at Risk, Department of Commerce Office of
  Inspector General, OSE-7329, November 1995.

7 2000 Decennial Census: Key Milestones and Associated Risks, OIG Memorandum to Chairman, Committee on Commerce,
  Science, and Transportation, December 1997.

8 Dress Rehearsal Activities at Menominee Indian Reservation and Chicago Regional Census Center Show That
  Improvements Are Needed for Census 2000, Department of Commerce Office of Inspector General, IPE-10753,
  September 1998.

9 A Better Strategy is Needed for Managing the Nation’s Master Address File, Department of Commerce Office of
  Inspector General, OSE-12065, September 2000.

10 2000 Census: Analysis of Fiscal Year 2000 Amended Budget Request, U.S. General Accounting Office, GAO/AIMD/GGD-
   99-291, September 1999, p. 4.

11 Letter from Benjamin E. King, Chairman, Panel on Research on Future Census Methods of the Committee on National
   Statistics, to Dr. William Barron, Acting Director, U.S. Bureau of the Census, February 15, 2001.

12 Killion, Ruth Ann, Obenski, Sally M., Buckley, Lisa E., 2010 Census Planning: Demographic and Technological Change
   Escalating Complexity, 2001, p. 10.

13 A Better Strategy is Needed for Managing the Nation’s Master Address File, Department of Commerce Office of
   Inspector General, OSE-12065, September 2000.

14 Public Awareness Campaign is Meeting Program Objectives, Department of Commerce Office of Inspector General, ESD-
   11755-9-0001, September 1999.

15 Decennial Statistical Studies Division, Census 2000 Procedures and Operations Memorandum, Series B-1, Data and
   Analysis to Inform the Executive Steering Committee on A.C.E. Policy Report, U.S. Census Bureau, March 2001, p. 19.

16 Re-enumeration at Three Local Census Offices in Florida: Hialeah, Broward South, and Homestead, Department of
   Commerce Office of Inspector General, ESD-13215-0-0001, September 2000.

17 Unjustified Decennial Census Unemployment Compensation Claims Should Be Reduced Because Terminations for Cause
   Were Mostly Well Documented, Department of Commerce Office of Inspector General, IPE-13212, September 2000.

18 Accuracy and Coverage Evaluation, Statement on the Feasibility of Using Statistical Methods to Improve the Accuracy
   of Census 2000, U.S. Census Bureau, June 2000, p. 1.



                                                                                                          Spring 2002         35
                                                                                                             U.S. Department of Commerce



  Improving Our
Measure of America:
     What
 Census 2000
Can Teach Us in
 Planning for
     2010
                      19 Decennial Statistical Studies Division, 2000 Procedures and Operations Memorandum Series, Chapter S-DT-1, Accuracy
                         and Coverage Evaluation: The Design Document, U.S. Census Bureau, January 2000, pp. 1 and 21.

                      20 Recommendation on Adjustment of Census Counts, Memorandum from William G. Barron Jr., Acting Director, Census
                         Bureau, to Donald L. Evans, Secretary of Commerce, March 1, 2001.

                      21 Report of the Executive Steering Committee for Accuracy and Coverage Evaluation Policy on Adjustment for Non-
                         Redistricting Uses, U.S. Census Bureau, October 17, 2001, p. 1.

                      22 Decision of the Secretary of Commerce on Whether a Statistical Adjustment of the 1990 Census of Population and
                         Housing Should Be Made for Coverage Deficiencies Resulting in an Overcount or Undercount of the Population.
                         Federal Register, Volume 56, No. 140, July 22, 1991.

                      23 Headquarters Information Processing Systems for the 2000 Decennial Census Require Technical and Management
                         Plans and Procedures, Department of Commerce Office of Inspector General, OSE-10034, November 1997.

                      24 Improvements Needed in Multiple Response Resolution to Ensure Accurate, Timely Processing for the 2000 Decennial
                         Census, Department of Commerce Office of Inspector General, OSE-10711, September 1999.

                      25 PAMS/ADAMS Should Provide Adequate Support for the Decennial Census, but Software Practices Need Improvement,
                         Department of Commerce Office of Inspector General, OSE-11684, March 2000.

                      26 2000 Census: Headquarters Information Processing Systems for the 2000 Decennial Census Require Technical and
                         Management Plans and Procedures, Department of Commerce Office of Inspector General, OSE-10034, November 1997.

                      27 Waite, Preston J., Obenski, Sally M., Buckley, Lisa E., 2010 Census Planning: The Strategy, 2001.

                      28 Computer Security for Transmission of Sensitive Data Should Be Strengthened, Department of Commerce Office of
                         Inspector General, OSE-10773, September 1998.

                      29 2000 Decennial Census Data Capture Needs Management Action, Department of Commerce Office of Inspector General,
                         EAD-6257, September 1994.

                      30 Data Capture System 2000 Needs Acquisition and Management Improvements, 7329(2), Department of Commerce
                         Office of Inspector General, July 1996.

                      31 Data Capture System 2000 Requirements and Testing Issues Caused Dress Rehearsal Problems, Department of
                         Commerce Office of Inspector General, OSE-10846, January 1999.

                      32 Telephone Questionnaire Assistance Contracts Need Administration and Surveillance Plan, Department of Commerce
                         Office of Inspector General, OSE-12376, August 2000.

                      33 Local Census Offices Were Successfully Opened, But Some Lessons Can Be Learned From Decennial Leasing Operations,
                         Department of Commerce Office of Inspector General, IPE-11573, September 2000.

                      34 2000 Census Better Productivity Data Needed for Future Planning and Budgeting, U.S. General Accounting Office,
                         GAO-02-4, October 2001, p. 6.




        36            Spring 2002
Office of Inspector General




                                                  References                                        Improving Our
                                                                                                  Measure of America:
                                                                                                       What
                                                                                                   Census 2000
                                                                                                  Can Teach Us in
                                                                                                   Planning for
                                                                                                       2010
 1. Department of Commerce, Bureau of the Census, October 17, 2001. Report of the Executive
    Steering Committee for Accuracy and Coverage Evaluation Policy on Adjustment for Non-
    Redistricting Uses. Suitland, Maryland: Department of Commerce, BOC.

 2. Department of Commerce, Bureau of the Census, March 2001. Recommendation on Adjustment
    of Census Counts. Suitland, MD: Department of Commerce, BOC.

 3. Department of Commerce, Bureau of the Census, March 2001. Data and Analysis to Inform the
    Executive Steering Committee on A.C.E. Policy Report, Census 2000 Procedures and Operations
    Memorandum Series B-1. Suitland, MD: Department of Commerce, BOC.

 4. Department of Commerce, Bureau of the Census, June 2000. Accuracy and Coverage Evaluation,
    Statement on the Feasibility of Using Statistical Methods to Improve the Accuracy of Census
    2000. Suitland, MD: Department of Commerce, BOC.

 5. Department of Commerce, Bureau of the Census, January 2000. Accuracy and Coverage
    Evaluation: The Design Document. Suitland, MD: Department of Commerce, BOC.

 6. Department of Commerce, Office of Inspector General, March 2002. Selected Aspects of Census
    2000 Accuracy and Coverage Evaluation Need Improvements Before 2010, IG-14426.
    Washington, DC: Department of Commerce, OIG.

 7. Department of Commerce, Office of Inspector General, March 2001. Actions to Address the
    Impact on the Accuracy and Coverage Evaluation of Suspected Duplicate Persons in the 2000
    Decennial Census, OSE-13812. Washington, DC: Department of Commerce, OIG.

 8. Department of Commerce, Office of Inspector General, September 2000. A Better Strategy is
    Needed for Managing the Nation’s Master Address File, OSE-12065. Washington, DC:
    Department of Commerce, OIG.

 9. Department of Commerce, Office of Inspector General, September 2000. Local Census Offices
    Were Successfully Opened, But Some Lessons Can Be Learned From Decennial Leasing
    Operations, IPE-11573. Washington, DC: Department of Commerce, OIG.

10. Department of Commerce, Office of Inspector General, September 2000. Re-enumeration at
    Three Local Census Offices in Florida: Hialeah, Broward South, and Homestead, ESD-13215-0-
    0001. Washington, DC: Department of Commerce, OIG.

11. Department of Commerce, Office of Inspector General, September 2000. Unjustified
    Decennial Census Unemployment Compensation Claims Should Be Reduced Because
    Terminations for Cause Were Mostly Well Documented, IPE-13212. Washington, DC:
    Department of Commerce, OIG.


                                                                                    Spring 2002        37
                                                                                           U.S. Department of Commerce



  Improving Our
Measure of America:
     What
 Census 2000
Can Teach Us in
 Planning for
     2010
                      12. Department of Commerce, Office of Inspector General, August 2000. Telephone Questionnaire
                          Assistance Contracts Need Administration and Surveillance Plan, OSE-12376. Washington, DC:
                          Department of Commerce, OIG.

                      13. Department of Commerce, Office of Inspector General, March 2000. Accountable Property Used
                          for the Decennial Census Needs Improved Controls, ESD-11781. Washington, DC: Department
                          of Commerce, OIG.

                      14. Department of Commerce, Office of Inspector General, March 2000. PAMS/ADAMS Should
                          Provide Adequate Support for Decennial Census, but Software Practices Need Improvement,
                          OSE-11684. Washington, DC: Department of Commerce, OIG.

                      15. Department of Commerce, Office of Inspector General, December 1999. Atlanta Region
                          Experienced Late Pay Problems for Census 2000 Employees, ATL-11640-0-001. Washington, DC:
                          Department of Commerce, OIG.

                      16. Department of Commerce, Office of Inspector General, September 1999. Dress Rehearsal
                          Quality Check Survey Experience Indicates Improvements Needed for 2000 Decennial, ESD-
                          11449-9-001. Washington, DC: Department of Commerce, OIG.

                      17. Department of Commerce, Office of Inspector General, September 1999. Method for Archiving
                          2000 Decennial Data and Procedures for Disposing of Questionnaires Should Be Finalized, OSE-
                          10758. Washington, DC: Department of Commerce, OIG.

                      18. Department of Commerce, Office of Inspector General, September 1999. Improvements Needed
                          in Multiple Response Resolution to Ensure Accurate, Timely Processing for the 2000 Decennial
                          Census, OSE-10711. Washington, DC: Department of Commerce, OIG.

                      19. Department of Commerce, Office of Inspector General, September 1999. Public Awareness is
                          Meeting Program Objectives, ESD 11755-9-0001. Washington, DC: Department of Commerce, OIG.

                      20. Department of Commerce, Office of Inspector General, January 1999. Data Capture System
                          2000 Requirements and Testing Issues Caused Dress Rehearsal Problems, OSE-10846.
                          Washington, DC: Department of Commerce, OIG.

                      21. Department of Commerce, Office of Inspector General, September 1998. Additional Steps
                          Needed to Improve Local Update of Census Addresses for the 2000 Decennial Census, IPE-
                          10756. Washington, DC: Department of Commerce, OIG.

                      22. Department of Commerce, Office of Inspector General, September 1998. Columbia Dress
                          Rehearsal Experience Suggests Changes to Improve Results of 2000 Decennial Census, ESD-
                          10783-8-0001. Washington, DC: Department of Commerce, OIG.


        38            Spring 2002
Office of Inspector General



                                                                                                    Improving Our
                                                                                                  Measure of America:
                                                                                                       What
                                                                                                   Census 2000
                                                                                                  Can Teach Us in
                                                                                                   Planning for
                                                                                                       2010
23. Department of Commerce, Office of Inspector General, September 1998. Columbia Dress
    Rehearsal Identifies Needed Improvements in Personnel Administration, ATL-11050-8-001.
    Washington, DC: Department of Commerce, OIG.

24. Department of Commerce, Office of Inspector General, September 1998. Computer Security for
    Transmission of Sensitive Data Should be Strengthened, OSE-10773. Washington, DC:
    Department of Commerce, OIG.

25. Department of Commerce, Office of Inspector General, September 1998. Dress Rehearsal
    Activities at Menominee Indian Reservation and Chicago Regional Census Center Show That
    Improvements Are Needed for Census 2000, IPE-10753. Washington, DC: Department of
    Commerce, OIG.

26. Department of Commerce, Office of Inspector General, September 1998. Sacramento Dress
    Rehearsal Experience Suggests Changes to Improve Results of 2000 Decennial Census, ESD-
    10784-8-0001. Washington, DC: Department of Commerce, OIG.

27. Department of Commerce, Office of Inspector General, September 1998. Sacramento Dress
    Rehearsal Identifies Needed Improvements in Personnel Administration, STL-110-52-8-0001.
    Washington, DC: Department of Commerce, OIG.

28. Department of Commerce, Office of Inspector General, September 1998. Quality Check Survey
    Should Be Kept Independent of Other Decennial Operations, ESD-10784-8-0002. Washington,
    DC: Department of Commerce, OIG.

29. Department of Commerce, Office of Inspector General, March 1998. 2000 Decennial Census:
    Address Building Program May Become More Complex, Costly, and Counterproductive, ESD-
    960808-001. Washington, DC: Department of Commerce, OIG.

30. Department of Commerce, Office of Inspector General, December 1997. 2000 Decennial Census:
    Key Milestones and Associated Risks, OIG Memorandum. Washington, DC: Department of
    Commerce, OIG.

31. Department of Commerce, Office of Inspector General, November 1997. Headquarters
    Information Processing Systems for the 2000 Decennial Census Require Technical and
    Management Plans and Procedures, OSE-10034. Washington, DC: Department of Commerce, OIG.

32. Department of Commerce, Office of Inspector General, September 1997. 2000 Decennial
    Census: Expanded Targeted Questionnaire Program May be Unnecessary and Counterproductive,
    ESD-9610-7-0001. Washington, DC: Department of Commerce, OIG.

33. Department of Commerce, Office of Inspector General, July 1996. Data Capture System 2000


                                                                                    Spring 2002        39
                                                                                              U.S. Department of Commerce



  Improving Our
Measure of America:
     What
 Census 2000
Can Teach Us in
 Planning for
     2010
                         Needs Acquisition and Management Improvements, OSE 7329-6-001. Washington, DC:
                         Department of Commerce, OIG.

                      34. Department of Commerce, Office of Inspector General, November 1995. Inadequate Design and
                          Decision-Making Process Could Place 2000 Decennial at Risk, OSE-7329. Washington, DC:
                          Department of Commerce, OIG.

                      35. Department of Commerce, Office of Inspector General, September 1994. 2000 Decennial Census
                          Data Capture Needs Management Action, EAD-6257. Washington, DC: Department of
                          Commerce, OIG.

                      36. Department of Commerce, Office of Inspector General, November 1986. Final Report on Cost-
                          Benefit Analyses for Decennial Improvements From 1970 to 1980, AIS-6-55. Washington, DC:
                          Department of Commerce, OIG.

                      37. Federal Register, Volume 56, Number 140, July 22, 1991. Decision of the Secretary of
                          Commerce on Whether a Statistical Adjustment of the 1990 Census of Population and Housing
                          Should Be Made for Coverage Deficiencies Resulting in an Overcount or Undercount of the
                          Population.

                      38. General Accounting Office, October 2001. 2000 Census Better Productivity Data Needed for
                          Future Planning and Budgeting, GAO-02-4. Washington, DC: General Accounting Office.

                      39. General Accounting Office, October 2001. 2000 Census: Headquarters Processing Systems
                          Status and Risks, GAO-01-1. Washington, DC: General Accounting Office.

                      40. General Accounting Office, September 1999. 2000 Census: Analysis of Fiscal Year Amended
                          Budget Request, GAO/AIMD/GGD-99-291. Washington, DC: General Accounting Office.

                      41. National Academy of Sciences, February 2001. Letter from Benjamin E. King, Chairman, Panel
                          on Research on Future Census Methods of the Committee on National Statistics, to Dr. William
                          Barron, Acting Director Bureau of the Census.

                      42. Killion, Ruth Ann, Obenski, Sally M., Buckley, Lisa E. 2010 Census Planning: Demographic and
                          Technological Change Escalating Complexity, 2001.

                      43. Waite, Preston J., Obenski, Sally M., Buckley, Lisa E. 2010 Census Planning: The Strategy, 2001.




        40            Spring 2002
Office of Inspector General
                              U.S. DEPARTMENT OF COMMERCE
                                      Office of Inspector General




                                www.oig.doc.gov
